      June 5, 2003




Logistics

Followup Audit of Depot-Level
Repairable Assets at Selected Army
and Navy Organizations
(D-2003-098)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMC                   Army Materiel Command
CAV                   Commercial Asset Visibility
CECOM                 Communications-Electronics Command
DDTP                  Defense Depot Tobyhanna Pennsylvania
DLA                   Defense Logistics Agency
DLR                   Depot-Level Repairable
ICP                   Inventory Control Point
IG DoD                Inspector General of the Department of Defense
NAVICP                Naval Inventory Control Point
NAVSUP                Naval Supply Systems Command
          Office of the Inspector General of the Department of Defense
Report No. D-2003-098                                                        June 5, 2003
   (Project No. D2002LD-0142)

              Followup Audit of Depot-Level Repairable Assets
                  at Selected Army and Navy Organizations

                                Executive Summary

Who Should Read This Report and Why? Logistics personnel having a responsibility
for materiel management of depot repairable assets should read this report. This report
evaluates the Army and Navy control and accountability over depot-level repairable
assets.

Background. The Army and Navy inventory control points manage secondary items
identified as depot-level repairable (DLR) items. DLR items are identified during the
item introduction process and represent those types of assets that can usually be
economically repaired and returned to use. The value of DLR inventory from the DoD
Supply System Inventory Report, September 30, 2001, was about $47.3 billion. Of the
$47.3 billion, the Army and the Navy accounted for $24.2 billion (51 percent).

This followup report is an assessment of actions taken by the Army and Navy to
implement recommendations previously reported in Inspector General of the Department
of Defense Report No. 97-014, “Control Over the Return of Repairable Assets,”
November 1, 1996, and Naval Audit Service Report No. N2000-0007, “Recording
Onhand Quantities of Aviation Depot Level Repairable Inventories at Commercial
Contractor Repair Facilities,” October 29, 1999. Inspector General of the Department of
Defense Report No. 97-014 states that the Army did not adequately account for
repairable assets in commercial repair facilities and in an Air Force storage depot. Naval
Audit Service Report No. N2000-0007 states that the Navy did not implement an
effective inventory accuracy program, to include monitoring in-transit inventory for
aviation DLRs at commercial contractors, and that there was inadequate oversight to
ensure that inventory balances recorded in inventory control point supply records were
accurate.

Results. The Army and the Navy had taken actions to improve procedures and controls
to account for DLRs. However, management needed to address several issues to further
improve DLR accountability. The Army had not fully implemented the DoD-wide
Commercial Asset Visibility system to improve DLR accountability at commercial
contractor repair facilities and did not fully account for Communications-Electronics
Command DLR inventory stored in a Defense Logistics Agency storage depot. The
Navy did not properly monitor DLR in-transit inventory. As a result, the Army had no
assurance that $2.73 billion of its DLR inventory at commercial contractors was properly
accounted for, the Communications-Electronics Command had unrecorded inventory
gains and losses of approximately $356.5 million, and Navy in-transit inventory was not
effectively controlled. Unrecorded and uncontrolled inventory is vulnerable to loss,
obsolescence, and theft. The Army also incurred unnecessary storage costs for obsolete
and excess inventory stored in the Defense Logistics Agency depot system. The
deployment of the Commercial Asset Visibility system, reconciliations of inventory
records, and physical inventories of items would further improve Army and Navy
accounting for DLRs and correct the material weakness identified by this audit. (See the
Finding section of the report for the detailed recommendations.)

Management Comments. The Army and Navy concurred with the recommendations;
therefore, no further comments are required. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                         i

Background                                               1

Objective                                                3

Finding
     Depot-Level Repair Asset Visibility                 4

Appendixes
     A. Scope and Methodology                            12
          Management Control Program Review              13
     B. Prior Coverage                                   14
     C. Navy Actions to Improve Accountability of DLRs   16
     D. Other Matters of Interest                        17
     E. Report Distribution                              18

Management Comments
     Department of the Army                              21
     Department of the Navy                              27
Background
           The Army and Navy inventory control points (ICPs) manage secondary items
           identified as depot-level repairable (DLR) items. DLR items (for example,
           engines and motors) are identified during the item introduction process and
           represent those types of assets that can usually be repaired economically and
           returned to use. DLR items requiring repair are scheduled for repair or rework by
           depot repair facilities or commercial contractor repair facilities. The inventory
           value of DLR assets was about $47.3 billion as of September 30, 2001.* Of the
           $47.3 billion, the Army and the Navy accounted for $24.2 billion (51 percent).

           Accounting For and Controlling Materiel. Inventory control is defined as the
           control of materiel by accounting and physical controls. Accounting control
           involves proper recording and reporting of inventories. Physical control
           incorporates adequate safeguards for receiving, storing, handling, and issuing
           materiel. Conducting a physical inventory by counting and physically inspecting
           the items tests the accounting and physical controls by validating an item’s
           storage location, on-hand quantity, and condition.

           Inventory control is needed to ensure that an adequate supply of materiel is on
           hand to maintain efficient levels of operation and to meet the demands of
           customers. Effective inventory control is also essential in disclosing defective
           and obsolete goods; preventing loss through damage, pilferage, or waste; ensuring
           inventory accuracy; and redistributing unused or excess materiel to meet other
           known requirements.

           Commercial Asset Visibility System. The Commercial Asset Visibility (CAV)
           system is an automated system that provides real-time visibility of DLRs as they
           flow through a contractor’s repair cycle. CAV is designed to provide specific
           asset tracking and accountability while materiel is in-transit either to or from a
           contractor’s repair facility or located at the repair facility. CAV is managed by
           the Naval Supply Systems Command (NAVSUP) and is a standard DoD-wide
           system.
           Inventory managers who are responsible for maintaining adequate repairable
           stock levels depend on timely and accurate information. Contractors must report
           transactions accurately and promptly for CAV to be effective. Transactions such
           as receipt and proof of shipment, which contractors provide, assist inventory
           managers in making decisions to repair assets, purchase new assets, or reallocate
           assets to satisfy requirements.

           Prior Audit Reports. The Inspector General of the Department of Defense
           (IG DoD) and the Naval Audit Service each issued an audit report addressing
           weaknesses in controls over DLR assets.

                   IG DoD Report. IG DoD Report No. 97-014, “Control Over the Return
           of Repairable Assets,” November 1, 1996, states that the Army and the Air Force
           did not adequately account for repairable assets in commercial repair facilities
*
    Source of inventory data is DoD Supply System Inventory Report dated September 30, 2001.



                                                     1
and in an Air Force storage depot. The IG DoD report did not address controls
over DLRs in the Navy because the Naval Audit Service had planned a similar
audit of DLRs. The Army and the Air Force concurred with IG DoD
recommendations to establish standard procedures for contractors to report receipt
transactions for DLR assets. The Army also agreed to include asset reporting
requirements in commercial repair contracts and the Air Force agreed to update
shipping data to preclude misdirected shipments of DLRs. The Air Force
concurred with the recommendation to establish procedures for the Air Force
Sacramento Air Logistics Center to electronically report any Army wholesale
inventory stored at that depot to the appropriate Army ICP. However, the Army
requested that this recommendation be redirected to the Defense Logistics
Agency (DLA) for action because DLA had assumed management of the DoD
storage depots from the Military Departments.

        Naval Audit Service Report. Naval Audit Service Report
No. N2000-0007, “Recording Onhand Quantities of Aviation Depot Level
Repairable Inventories at Commercial Contractor Repair Facilities,”
October 29, 1999, states that the Navy did not implement an effective inventory
accuracy program, to include monitoring in-transit inventory for aviation DLRs at
commercial contractors, and that there was inadequate oversight to ensure that
inventory balances recorded in ICP supply records were accurate. The Navy
concurred with the recommendations by the Naval Audit Service to improve the
Naval Inventory Control Point (NAVICP) inventory accuracy program for
aviation DLRs at commercial contractors. The Navy agreed to oversee aviation
DLRs at commercial repair facilities by using in-transit stock information to
monitor the accuracy of recorded balances of aviation DLRs and that the
NAVICP would implement the Inventory Accuracy Officer Program to improve
DLR accountability. Naval Audit Service also recommended that the NAVICP
use the Inventory Accuracy Officer Program to monitor contractors who report
inventory transactions in an untimely manner, request assistance from contract
administration personnel in resolving in-transit transactions, and include asset
reporting requirements as a separate line item in commercial repair contracts.

Audit Focus. The audit focused on specific actions taken by the Army and Navy
to implement recommendations reported in IG DoD Report No. 97-014 and Naval
Audit Service Report No. N2000-0007. For the Army, we evaluated actions taken
to implement recommendations to improve DLR accountability at selected
commercial repair facilities and to account for wholesale inventory that was
managed by the Army Communications-Electronics Command (CECOM) and
stored in the DLA Defense Depot Tobyhanna Pennsylvania (DDTP). For the
Navy, we evaluated actions taken to implement an effective inventory accuracy
program, which included monitoring in-transit inventory for DLRs at commercial
contractors, and management oversight to ensure that the inventory balances
recorded in supply records were accurate. We did not evaluate the Army in-
transit inventory because it was not addressed in IG DoD Report No. 97-014 and
because the Army Audit Agency issued Report No. A-2002-0304-AMW,
April 19, 2002, which addresses in-transit inventory.




                                    2
    We also excluded an evaluation of the actions taken by the Air Force to
    implement recommendations in IG DoD Report No. 97-014 because the General
    Accounting Office Report No. GAO-02-717, “Air Force Needs to Improve
    Control of Shipments to Repair Contractors,” July 2002, addresses problems with
    Air Force controls over DLR shipments to repair contractors. Additionally, the
    Air Force Audit Agency had an ongoing audit that was started in June 2001,
    which addressed controls over in-transit DLR inventory. See Appendix D for a
    discussion on other matters of interest concerning the Air Force coverage.


Objective
    Our overall audit objective was to evaluate the processes used by the Military
    Departments to recover or otherwise account for DLR assets. This followup
    report discusses the Army and the Navy implementation of recommendations
    reported in IG DoD Report No. 97-014 and Naval Audit Service Report
    No. N2000-0007. We also reviewed Army and Navy management control
    programs as they applied to the audit objectives. See Appendix A for a
    discussion of the scope and methodology and our review of the management
    control program. See Appendix B for prior coverage related to the objective.




                                        3
           Depot-Level Repair Asset Visibility
           The Army and the Navy had taken actions to improve procedures and
           controls to account for DLRs. However, management needed to address
           several issues to further improve DLR accountability. The Army had not
           fully implemented the DoD-wide CAV system to improve DLR
           accountability at commercial repair facilities and did not fully account for
           CECOM DLR inventory stored in DDTP. The Navy did not properly
           monitor DLR in-transit inventory. Those conditions occurred because of
           limited resources to implement the Army CAV system, CECOM
           noncompliance with procedures to annually reconcile its inventory records
           with DDTP storage records, and the lack of management information and
           oversight to properly monitor Navy in-transit inventory. As a result, the
           Army had no assurance that $2.7 billion of its DLR inventory at
           commercial contractors was properly accounted for, CECOM had
           unrecorded inventory gains and losses valued at approximately
           $356.5 million, and Navy in-transit inventory was not effectively
           controlled. Unrecorded and uncontrolled inventory is vulnerable to loss,
           obsolescence, and theft. Additionally, the Army incurred unnecessary
           storage costs for obsolete inventory stored in the DLA depot system.


Guidance on Item Accountability
    DoD Regulation 4140.1-R. DoD Regulation 4140.1-R, “DoD Management
    Regulation,” May 1998, provides policies and guidance for item accountability,
    control, and stewardship. The Regulation states that integrated materiel managers
    are responsible for initiating and directing physical inventories, resolving
    inventory discrepancies, and taking applicable actions necessary to ensure that the
    physical on-hand quantity and the property record quantity are in agreement for
    all DoD materiel that is not in the physical custody of DoD organizations. The
    Regulation further states that the storage organizations shall conduct physical
    inventories; initiate and conduct research to resolve discrepancies; prepare supply
    discrepancy reports; and ensure that the physical on-hand quantity and the total
    item property record quantity are in agreement.

    DoD Manual 4000.25-2-M. DoD Manual 4000.25-2-M, “Military Standard
    Transaction Reporting and Accounting Procedures,” March 28, 2002, requires
    annual location reconciliations. The location reconciliation is essentially a match
    between the storage facility’s records and the owner’s records. The purpose of
    the location reconciliation is to identify and correct situations when there is an
    owner record with no corresponding storage facility record, when there is a
    storage facility record with no corresponding owner record, when there are
    common elements of data that do not match, or when there are quantity
    discrepancies. The annual location reconciliation is essentially a system-to-
    system comparison of asset balances, as recorded in storage facilities’ and
    owners’ records.




                                         4
    The Manual further states that when location reconciliation discrepancies are
    unresolved, the owners’ records are adjusted to bring the ICP asset balances in
    line with the storage location records and that causative research will be
    performed to resolve discrepancies that meet specified criteria (for example,
    classified or sensitive items, pilferable items, and discrepancies of $16,000 or
    greater). Causative research includes researching the records of the owner and
    the storage organization and, in some instances, depending on the dollar value of
    the discrepancy or if the item is classified, sensitive, or pilferable, performing a
    special physical inventory. A special physical inventory is performed at a
    location whenever preliminary record checks or tests do not resolve discrepancies
    and the breach of certain criteria, such as dollar thresholds or item type, dictate
    the need.

    Army Regulation 740-26. Army Regulation 740-26, “Physical Inventory
    Control,” November 19, 2001, implements DoD asset management requirements.
    The Regulation states that the Commander, U.S. Army Materiel Command
    (AMC) is responsible for providing command emphasis on the physical inventory
    control program, furnishing the resources to ensure compliance, and evaluating
    the performance and effectiveness of the inventory and location systems. The
    Regulation further requires that the annual location reconciliation includes a
    match of the quantity and condition of the materiel.

    Naval Supply Systems Command Publication 723. Navy property
    accountability policies, procedures, and practices are set forth in NAVSUP
    Publication 723, “Navy Inventory Integrity Procedures,” April 19, 2000. The
    Publication describes the broad requirements of the control over repairable items
    and indicates that an item is to be classified as in-transit inventory when there is
    either a recorded issue in the Navy supply system with no corresponding receipt
    or a recorded receipt with no corresponding issue. The Publication further states
    that if a receipt and an issue cannot be matched within 6 months, the NAVICP
    Commander can reduce, or write-off, the value of the in-transit inventory from
    accounting and supply records. However, the Publication states that certain items
    must be reviewed before the in-transit inventory is written off. Those items fall
    into three categories: classified and sensitive, pilferable, and unclassified.
    Classified and sensitive items must be reviewed, regardless of the in-transit dollar
    value. Pilferable and unclassified items must be reviewed only if the in-transit
    dollar value exceeds $2,500 for pilferable items or $15,000 for unclassified items.


Review of the Army
    The Army had taken actions to improve procedures and increase controls for DLR
    inventory. However, the Army had not fully implemented the CAV system to
    address the DLR accountability problems reported in IG DoD Report No. 97-014
    and did not fully account for CECOM DLR inventory stored in DDTP.

    Commercial Repair Facilities. The Army had improved procedures and
    controls for accounting for DLRs at commercial repair facilities; however, it had
    not fully implemented the CAV system to address the DLR accountability
    problems reported in IG DoD Report No. 97-014. IG DoD Report No. 97-014


                                         5
states that the Army did not adequately account for DLRs, primarily because it
did not have standard procedures for contractors to report the receipt of repairable
assets. In a September 1996 response to the report, the Army stated that it was in
the process of developing a CAV system that would provide the required
information to properly account for repairable assets. Implementation of CAV
was scheduled for FY 1998. As a first step, in May 1997, the AMC directed its
major subordinate commands to include a reporting provision in new commercial
repair contracts that requires contractors to report the receipt and issue of
repairable assets.

Army CAV program office personnel stated that, because of limited resources
(funding and personnel), the Army has not fully implemented the CAV system,
and the goal is to have 80 percent of the dollar value of commercially repaired
assets included in the CAV system by FY 2008. The CAV deputy program
manager stated that as of August 2002, the Army CAV system had been deployed
to only 48 contractors—32 percent of the estimated 150 contractor repair facilities
that will eventually use the CAV system. Also, the dollar value of DLRs at
contractor repair facilities not included in the CAV system was approximately
$2.7 billion (82 percent) of the $3.3 billion in total value for DLRs at commercial
repair facilities. According to the CAV deputy program manager, initial fielding
of the CAV system was directed to smaller commercial repair facilities in order to
refine the CAV learning process. Contractors were being selected for inclusion in
the CAV system based on a number of factors, including length of DLR repair
contract (starting with those contracts nearing renegotiation and renewal), dollar
value, and quantity of assets.

The Army had deployed the CAV system only to commercial repair facilities with
18 percent (about $600 million) of the total value of DLR inventory. We did not
evaluate the implementation of the CAV system at those Army commercial
facilities because our review of the Navy system indicated that, if properly
executed, the CAV system provides controls to properly account for DLR
inventory. The Naval Audit Service Report No. N2000-0007 did not identify any
material problems with implementing the CAV system in the Navy. However,
until the Army fully implements the CAV system at the balance of commercial
repair facilities, it has no assurance that the DLR accountability problems
identified in IG DoD Report No. 97-014 have been corrected and that the
$2.7 billion of non-CAV DLRs is properly accounted for.

CECOM Assets Stored at DDTP. The Army did not have control of DLRs
managed by CECOM and stored at DDTP, because CECOM had not performed
the required annual location reconciliation between its inventory records and
DDTP storage records. Army and DLA personnel informed us that the
reconciliation had not been performed for at least 5 years because of a
1997 memorandum of agreement between the Army and DLA. The agreement
was reached because DDTP did not have the capability to track communication
and security assets by serial number in the Distribution Standard System. DDTP
uses the Distribution Standard System to maintain perpetual inventory records
and provide ICPs with updated inventory data on quantity, ownership, and
condition of materiel stored in the depot.




                                     6
As of January 2003, DDTP did not have the capability to track communication
and security assets by serial number. DDTP personnel stated that a system
modification to track those assets by serial number was in process, but had not
been completed. We found that the 1997 memorandum of agreement did not
differentiate between communication and security assets, which require a serial
number, and other assets that do not require a serial number for tracking purposes.
We found that the non-communication and security assets had not been
reconciled, which we discussed with the AMC inventory action officer. He stated
that he was unaware the reconciliations had not been done and as a result of our
audit, he directed that a reconciliation be done in accordance with
DoD 4000.25-2-M.

The reconciliation was performed in October 2002 and showed that CECOM did
not meet the location record accuracy goal of 97 percent, as prescribed in
DoD 4000.25-2-M. Of the 27,076 records reconciled, 19,361 records (72 percent)
matched and 7,715 records (28 percent) had quantity mismatches. Data provided
by CECOM showed that the value of CECOM inventory records adjusted as a
result of the quantity mismatches was $356.5 million. There were 3,487 gain
adjustments totaling $183 million and 4,228 loss adjustments totaling
$173.4 million.

AMC personnel stated that CECOM was directed to review the mismatches and
develop a corrective action plan. In response to the AMC direction, CECOM
agreed to conduct causative research to validate the adjustments on selected high
dollar value adjustments that resulted from the reconciliation. AMC personnel
indicated that they would use the results of the research to provide corrective
actions, such as additional controls, guidance, or training, to improve
accountability.

CECOM personnel stated that the adjustments did not appear to have had much
impact on readiness because no backorders were filled as a result of the inventory
gains. They also said that although they were not certain, they did not believe the
inventory losses had resulted in any procurement actions. They further stated that
only two or three item managers had even inquired about the inventory losses.

We judgmentally selected for review 50 items, with inventory adjustments
totaling $176.8 million (about 50 percent of the $356.5 million of inventory
adjusted), to see whether the CECOM contention that the adjustments had no
significant impact on readiness was valid. Our review indicated that the CECOM
contention was valid. Of the 50 items reviewed, 6 items were terminal or
obsolete, 17 items had decreasing requirements and their stocks were in excess,
and 9 items supported other items that were being replaced. CECOM should
determine whether items are obsolete or in excess before initiating further actions
involving this inventory.

The Army was paying DLA storage fees for DLR items that were stocked at DLA
depots. In FY 2003, DLA estimated that Army storage costs would be about
$100 million. Of the $100 million, $15 million was for DLRs stored at DDTP.
From the results of our review, it was apparent that the Army was paying DLA
storage fees for items that were obsolete or excess.



                                     7
    AMC Oversight of DLR Materiel in Storage. The lack of AMC oversight of
    Army-owned assets in storage at DDTP contributed to the lack of DLR visibility.
    Army Regulation 740-26 states that AMC is responsible for evaluating the
    performance and effectiveness of the inventory and the location systems in terms
    of the responsiveness to materiel management requirements. Materiel
    management requirements include determining whether annual location
    reconciliations are scheduled and performed. Because AMC personnel said they
    were unaware that a location reconciliation between CECOM and DDTP was not
    being performed annually, controls needed to be established so that AMC can
    verify that annual reconciliations are performed.


Review of the Navy
    Naval Audit Service Report No. N2000-0007 did not identify any material
    problems with the CAV system and the Navy had taken actions to improve
    procedures and controls to account for DLRs (see Appendix C). However, the
    Navy needed to take additional actions to further improve the monitoring and
    oversight of in-transit inventory.

    Commercial Repair Facilities. The Navy had taken actions to improve
    procedures and controls to account for DLR inventory at commercial repair
    facilities. Naval Audit Service Report No. N2000-0007 states that NAVICP did
    not implement an effective inventory accuracy program for aviation DLRs at
    commercial repair facilities and that NAVSUP did not provide adequate oversight
    to ensure that NAVICP recorded inventory balances were accurate. NAVICP
    inventory records were inaccurate primarily because contractors did not report
    supply transactions as the transactions occurred, and NAVICP procedures were
    ineffective in enforcing contractual reporting requirements.

    We consider the actions taken by the Navy to be responsive to addressing the
    accountability problems noted in the prior Navy audit. To test DLR
    accountability in NAVICP records, we reviewed a judgment sample of 452
    receipt and issue transactions, which involved 2,114 items and 25 commercial
    repair facilities that were processed through the Defense Automatic Addressing
    System (the DoD automated system that routes logistics transactions among
    organizations), from December 2001 through May 2002. Except for five
    transactions involving eight items valued at about $24,700, all materiel was
    properly accounted for. In addition, we visited two commercial repair facilities to
    determine whether materiel on-hand at the facilities was properly recorded in
    NAVICP records. At the first facility, we judgmentally sampled 21 items that
    were all properly recorded in the NAVICP records. At the second facility, we
    judgmentally sampled 56 items and determined that 19 items were not properly
    accounted for in the NAVICP records. Problems included unrecorded issues in
    the tracking system and inaccurate reporting by the contractor on the disposal of
    scrap items. The Navy was aware of those problems and agreed to take corrective
    actions to ensure that items were properly recorded.

    In-Transit Inventory. The Navy needs to take additional actions to further
    improve the monitoring and oversight of in-transit inventory. As of


                                         8
    September 2002, NAVICP financial records showed that aviation in-transit
    inventory was $1.1 billion.



    To research and reduce reported in-transit inventory, the NAVICP uses both Navy
    and contractor personnel. Contractor personnel generally research transactions
    that are in-transit 274 days and over, and Navy personnel generally research
    transactions that are in-transit 273 days and under. The statement of work for a
    1-year contract awarded in February 2003 to Resources Consultants Incorporated,
    states that the contractor is required to provide status reports to the Navy, twice a
    month. The contract requires reports to categorize accomplishments by the age of
    the in-transit at closure of the research, and to include current accomplishments
    and project-to-date totals. NAVICP intends to use the reports to enact software
    modifications and identify problems that prevent accurate issue and receipt
    reporting. No such requirement for that type of reporting is provided for the
    in-transit research done by Navy personnel. Such information would assist the
    inventory accuracy officer in monitoring in-transit inventory, not only for
    evaluating the work done by the Navy personnel, but also in evaluating the
    overall effort to reduce in-transit inventory.

    In reviewing the process that the Navy used to research and review in-transits, we
    identified in-transits that met the review criteria in NAVSUP Publication 723 but
    were not reviewed by the Navy before writing the in-transits off as losses. For
    FY 2002, there were 570 in-transits valued at $23.6 million that were written off
    as in-transit losses, without the required review. Of the 570 in-transits, 410 items
    valued at $13.3 million were classified as pilferable. The Navy needs to establish
    controls to ensure that all in-transits written off as losses are properly reviewed.


Management Comments on the Finding
    The Navy concurred with those portions of the finding applicable to the Navy.
    The Navy stated that it recognizes the importance of DLR and in-transit
    accountability and has improved existing processes, enhanced automated tools,
    increased staffing, and hired contractor labor to aid with the analysis and
    resolution of open in-transit documents. The Navy further stated that in-transits
    are a top priority within the NAVICP and will continue to be monitored as such.


Recommendations and Management Comments
    1. We recommend that the Commander, Army Materiel Command:

            a. Expedite funding and the deployment of the Commercial Asset
    Visibility system to Army commercial repair facilities. Funding and
    deployment should be prioritized based primarily on the dollar value of
    repairable assets at the commercial repair facilities.



                                          9
Management Comments. AMC concurred, stating that it has established a
CAV II project office and has requested funding to enable improved visibility of
DLRs at commercial facilities based on the dollar value of the DLRs at each
facility.

       b. Perform oversight of compliance with DoD 4000.25-2-M, “Military
Standard Transaction Reporting and Accounting Procedures,” March 28,
2002, to conduct annual location reconciliations between inventory control
point records and storage depot records.

Management Comments. AMC concurred, stating that it now schedules and
oversees annual reconciliation location audits between all AMC Inventory
Materiel Management Centers and worldwide storage sites.

2. We recommend that the Commander, Communications-Electronics
Command:

        a. Determine whether the items with inventory records that were
adjusted as a result of the October 2002 reconciliation between the
Communications-Electronics Command and the Defense Depot Tobyhanna
Pennsylvania are obsolete or excess to requirements. That determination
should be made before requesting special inventories or performing other
costly causative research procedures.

Management Comments. CECOM concurred, stating that it has established
procedures to identify terminal items in its inventory adjustment review process
to avoid causative research actions that could be better focused on assets affecting
readiness.

       b. Dispose of those assets that are identified as obsolete or excess to
projected requirements.

Management Comments. CECOM concurred, stating that it has had a series of
meetings with AMC concerning the funding and disposition of dormant and
excess materiel at DLA sites. Listings have been provided to the DDTP
Commander for prioritization of those national stock number items that would
free up the most storage space.

3. We recommend that the Commander, Naval Inventory Control Point:

       a. Develop in-house procedures to provide management information
reports to the inventory accuracy officer, comparable to the management
information reports required in the February 2003 contract awarded to
Resources Consultant Incorporated, to assist in reducing in-transit
inventory.

Management Comments. NAVICP concurred, stating that it has developed new
statistical metric reports for the inventory accuracy office to monitor all portions
of stock in-transit. Additionally, customer training and metrics briefings to the
Commander NAVICP and Commander NAVSUP will result in total asset in-
transit visibility as well as financial accountability for in-transit assets.


                                     10
        b. Establish controls to ensure that all in-transit items that meet the
criteria in Naval Supply Systems Command Publication 723, “Navy
Inventory Integrity Procedures,” April 19, 2000, are reviewed prior to
writing them off as an inventory loss.

Management Comments. NAVICP concurred, stating that it will recommend
that NAVSUP Publication 723 be revised to further clarify the requirements for
adequately completing a review for all categories of in-transits. NAVSUP
Publication 723 is under revision for release in the summer of 2003.




                                   11
Appendix A. Scope and Methodology
   We reviewed procedures and guidance regarding control of repairable assets. We
   performed the review at AMC, Army CECOM, the Tobyhanna Army Depot;
   NAVSUP, NAVICP (Philadelphia and Mechanicsburg, Pennsylvania offices);
   and DDTP. We also contacted personnel at the Air Force Air Logistics Centers at
   Ogden, Utah; Warner Robins, Georgia; and Oklahoma City, Oklahoma; DLA
   headquarters; Defense Distribution Center headquarters; and commercial
   contractors that support the Army and Navy DLR accountability programs or
   repairing DLRs. However, we limited the scope of our review at Air Force
   organizations and referred additional audit work to the Air Force Audit Agency.
   We also did not validate CAV deployment data provided by the Army. We
   performed this audit from May 2002 through March 2003 in accordance with
   generally accepted government auditing standards. The documents we reviewed
   included DoD, Army, and Navy guidance, ICP supply and financial records,
   commercial contracts, and depot storage records that were dated from
   November 15, 1994, through January 16, 2003.

   To determine whether CECOM-managed repairable assets stored at DDTP were
   properly recorded on CECOM inventory records, we physically inventoried
   judgmentally selected items stored at DDTP. We also used the results of an AMC
   directed October 2002 reconciliation between CECOM inventory records and
   DDTP storage records as a basis for evaluating the Army’s control and visibility
   over repairable assets.

   To evaluate the NAVICP control of DLRs, we reviewed a judgmental sample of
   452 receipt and issue transactions involving commercial repair facilities to
   determine whether the transactions were properly accounted for on NAVICP
   records. The transactions we reviewed were processed through the Defense
   Automatic Addressing System from December 2001 through May 2002. In
   addition, we visited two commercial repair facilities to determine whether
   materiel on-hand at the facilities was properly recorded on NAVICP records. To
   evaluate NAVICP in-transit inventories, we analyzed in-transit databases to
   determine which items required review before being written off as lost in-transit,
   and we discussed procedures used to research in-transit transactions with
   NAVICP and contactor personnel.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the Army Commodity Command Standard System, the Army Standard Depot
   System, the DLA Distribution Standard System, the Defense Automatic
   Addressing System, and the NAVICP CAV system. The data used for this audit
   came from databases of CECOM managed assets, NAVICP DLR assets, stock
   in-transit files, transaction history files, receipt and issue transactions, and asset
   balance and location records. To the extent we reviewed the data, we did not find
   errors that would preclude use of the data to meet the audit objective, or which
   would change the conclusions in this report.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Inventory Management high-risk area.


                                         12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of those controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of Army and Navy management controls used to recover or otherwise
    account for DLR assets. We reviewed Army and Navy self-evaluations
    applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified a material management control weakness at the Army. The Army
    did not have control and accountability of DLRs. Recommendation 1. in this
    report, if implemented, will correct the material weakness identified by this audit.
    A copy of the report will be provided to the senior official responsible for
    management controls in the Army.

    Adequacy of Management’s Self-Evaluation. The Army did not identify
    deploying the CAV or reviewing compliance with the requirement of
    DoD 4000.25-2-M for annual location reconciliations as assessable units and,
    therefore, it did not identify or report the material management control weakness
    identified by the audit.




                                         13
Appendix B. Prior Coverage
    During the last 7 years, the General Accounting Office, the IG DoD, the Army
    Audit Agency, and the Naval Audit Service have issued reports discussing
    controls over repairable assets. The General Accounting Office issued eight
    reports, the IG DoD issued two reports, the Army Audit Agency issued one
    report, and the Naval Audit Service issued one report. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


General Accounting Office
    GAO Report No. 02-617, “Air Force Needs to Improve Controls of Shipments to
    Repair Contractors,” July 2002

    GAO Report No. 01-30, “Implementation Plans to Enhance Control Over Shipped
    Items Can Be Improved,” November 2000

    GAO Report No. OSI/NSIAD-00-243R, “Status of Navy Initiatives to Improve Its
    In-Transit Inventory Process,” August 2000

    GAO Report No. NSIAD 00-109, “Army Needs to Strengthen and Follow
    Procedures to Control Shipped Items,” June 2000

    GAO Report No. NSIAD 00-39, “Plan to Improve Management of Shipped
    Inventory Should Be Strengthened,” February 2000

    GAO Report No. OSI/NSIAD 00-61, “Breakdown of In-Transit Inventory Process
    Leaves it Vulnerable to Fraud,” February 2000

    GAO Report No. NSIAD-99-61, “Navy’s Procedures for Controlling In-Transit
    Items Are Not Being Followed,” March 1999

    GAO Report No. NSIAD-98-80R, “Department of Defense In-Transit Inventory,”
    February 1998


IG DoD
    IG DoD Report No. 99-174, “Depot-Level Repair of Foreign Military Sales
    Items,” June 3, 1999

    IG DoD Report No. 97-014, “Control Over the Return of Repairable Assets,”
    November 1, 1996



                                       14
Army
       Army Audit Agency Report No. A-2002-0304-AMW, “Selected Internal Controls
       Over Inventory,” April 19, 2002


Navy
       Naval Audit Service Report No. N2000-0007, “Recording Onhand Quantities of
       Aviation Depot Level Repairable Inventories at Commercial Contractor Repair
       Facilities,” October 29, 1999




                                        15
Appendix C. Navy Actions to Improve
            Accountability of DLRs
   In response to Naval Audit Service Report No. N2000-0007 and several General
   Accounting Office reports, the Navy took the following actions to improve the
   accountability and oversight of DLRs:

          • developed a program to identify organizations that did not report receipt
   and issue transactions in a timely manner;

           • developed a report to identify contractors that did not report inventory
   transactions in a timely manner and established procedures to disseminate the
   report to contracting officers for appropriate action;

          • hired a contractor to research overage in-transits;

          • held meetings with DLA, Navy organizations, and contractors to
   address problems with receipt and issue reporting;

          • included a clause in commercial repair contracts to require contractors
   to submit supply transactions as they occur;

          • increased the number of contractors and the dollar value of inventory in
   the CAV system (of 360 contractors with DLRs valued at about $5.3 billion, there
   were 304 [84.4 percent] contractors with inventory valued at $5.1 billion
   [96 percent] as of September 2002);

           • initiated a program that provides for a single carrier to pick up and
   deliver DLRs (this program assists the Navy in obtaining issue and receipt
   documents to resolve in-transits);

          • performed complete inventories at 25 commercial repair facilities to
   ensure that DLRs were properly accounted for; and

         • revised local NAVICP guidance to properly implement the Inventory
   Accuracy Officer Program.




                                        16
Appendix D. Other Matters of Interest
   This report follows up on IG DoD Report No. 97-014, which discusses Army
   and Air Force controls over the return of repairable assets to the supply system,
   and on recommendations made in Naval Audit Service Report No. N2000-0007.
   This report does not include the Air Force because in July 2002 the General
   Accounting Office issued GAO Report No. 02-617 addressing problems with
   Air Force controls over shipments to repair contractors. The Air Force Audit
   Agency also began an audit in June 2001 on the visibility and control over
   in-transit inventories (Project No. 01061026). The overall objective of that audit
   was to evaluate the effectiveness of asset shipment and receipt processing. The
   audit was canceled in February 2003 because workload priorities and personnel
   changes prevented issuing an audit report in a timely manner. However, issues
   addressed in the audit were considered important and the Air Force Audit Agency
   believes that several in-transit issues need to be addressed and revalidated in a
   future Air Force-wide audit.

   In our followup audit on IG DoD Report No. 97-014, we noted a problem
   related to DLR accountability for Air Force items stored at DDTP. We found
   discrepancies between DDTP stock balances and Air Force inventory records.
   The Air Force personnel we spoke with concerning those discrepancies stated
   that, because of system problems, the Air Force had not performed the required
   location reconciliations with DDTP to identify discrepancies between depot and
   ICP inventory records. We advised the Air Force Audit Agency of the omission
   of location reconciliations for consideration in future audits.




                                       17
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Materiel Command
  Commander, Communications-Electronics Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                         18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Information Policy, Intergovernmental
  Relations, and the Census, Committee on Government Reform




                                      19
Department of the Army Comments




                    21
22
23
24
25
26
Department of the Navy Comments




                    27
28
29
30
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Tilghman Schraden
Terrance Wing
James McDermott
John Henry
Paul Hollister
Herman Tolbert
Brett Mansfield
Mike Talevi
Susann L. Cobb
